<html>
<title> - U.N. CLIMATE TALKS AND POWER POLITICS: IT'S NOT ABOUT THE TEMPERATURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                U.N. CLIMATE TALKS AND POWER POLITICS: 
                     IT'S NOT ABOUT THE TEMPERATURE

=======================================================================


                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2011

                               __________

                           Serial No. 112-22

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
66-534                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Todd D. Stern, Special Envoy for Climate Change, U.S. 
  Department of State............................................    10
Steven F. Hayward, Ph.D., F. K. Weyerhaeuser Fellow, American 
  Enterprise Institute...........................................    26
Mr. Elliot Diringer, Vice President for International Strategies, 
  Pew Center on Global Climate Change............................    32
Daniel Twining, Ph.D., Senior Fellow for Asia, German Marshall 
  Fund of the United States......................................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Oversight and Investigations:
  Material submitted for the record..............................     2
  Prepared statement.............................................     7
Mr. Todd D. Stern: Prepared statement............................    13
Steven F. Hayward, Ph.D.: Prepared statement.....................    29
Mr. Elliot Diringer: Prepared statement..........................    35
Daniel Twining, Ph.D.: Prepared statement........................    46

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63


 U.N. CLIMATE TALKS AND POWER POLITICS: IT'S NOT ABOUT THE TEMPERATURE

                              ----------                              


                        WEDNESDAY, MAY 25, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. If you take a look at what I just did, it 
is very fascinating because it goes right to the hearing. What 
I did is I switched this button on so you could hear me, which 
brings to play energy that is created somewhere by something, 
which we are using to make this hearing more effective. And 
energy plays a part in things that we just take it for granted 
so often, so even as we are conversing there are technology 
machines and energy that is being brought to play as part of 
this communication.
    So with that advance statement to my statement, I will 
proceed.
    In December 2007, the U.N. Framework Convention on Climate 
Change met in Bali, Indonesia. There, in one of the most 
opulent resort areas of the world, a playground for the rich, I 
might add, a great place for surfers from around the world to 
go to, but there in this tropical paradise came people from all 
over the world on their private airplanes and chartered 
airplanes and met by limousines, and they were there while they 
were there, a plan was drawn up to impose what has to be looked 
at in retrospect as a lower standard of living for a large 
number of people on this planet.
    The imperative was to be man-made, of course. The 
imperative behind all of this is alleged to be man-made global 
warming, which we are told poses a danger against which the 
whole world should unite.
    In the years since then, the scientific assumptions of this 
supposed crisis have been increasingly challenged by prominent 
scientists throughout the world, although, again, we hear over 
and over again that the debate is closed, and thus those 
scientists who have something to say are being for the most 
part ignored.
    But among them are Richard Lindzen of the Massachusetts 
Institute of Technology; Patrick Michaels of the University of 
Virginia; Freeman Dyson at the Institute for Advanced Study at 
Princeton; Frank Tipler, a professor of both mathematics and 
physics from Tulane University; and Roy Spencer, a 
climatologist and a principal research scientist for the 
University of Alabama in Huntsville. All these are among the 
scientists, the many eminent scientists whose work has 
contradicted the U.N. orthodoxy of man-made global warming. I 
have a list of another 100 prominent scientists who agree with 
the five that I have just mentioned and they will now be placed 
in the record, without objection.
    Hearing no objection so ordered.
    [The information referred to follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. Significantly, in determining what the 
heck is going on here is the fact that U.N. climate talks have 
not become a forum for global cooperation, which was expected; 
something as dramatic as a threat to the whole world but yet it 
was not forthcoming in any of these with global cooperation. 
Instead, what these meetings have tended to be like is an arena 
for competing national interests under the slogan ``common but 
differential responsibilities''; and then ``zero sum,'' world 
was created which pitted developed and developing countries 
against each other, and within each block of nations there were 
separate groupings.
    Behind the debate over the supposed science of climate 
change, nations have fought for trade advantages, the transfer 
of technology, the flow of capital, and of course political and 
economic influence. Coalitions have formed that will affect the 
global balance of power and wealth far beyond the time when 
these conferences are ever remembered.
    The stake here, and the stakes here are high, is nothing 
less than how the future growth of the world economy will be 
divided up and how much future growth will be permitted in the 
world economy, who will be allowed to prosper and who will be 
forced to slow down or even decline in their standard of 
living. These are all issues that are on the table.
    The current talks aim at<greek-l>, quote, deg. ``a binding 
agreement'' to be signed in December at a conference to be held 
in Durbin, South Africa. It is meant to replace the Kyoto 
Protocol of 1997 which will expire in 2012. The United States 
did not accept the Kyoto Protocol because it imposed 
restrictions only on developed countries, while leaving 
developing countries free to follow whatever strategy for 
economic growth they desired.
    U.N. documents still call for the next agreement to follow 
this same pattern, protecting the right of some nations to rise 
while imposing a burden of debt on developed countries, 
especially the developed countries of North America, Europe, 
and Japan; and this debt burden, of course, is a penalty of 
modernization and being successful. I am not sure that is what 
we want to do to achieve progress among the human race is to 
penalize modernization and success.
    This is a framework for restructuring the global economy 
and shifting the balance of wealth and power. The first 
manifestation of all this talk is the establishment of a green 
climate fund which is supposed to reach $100 billion a year by 
the year 2020. One can only guess which countries will 
contribute to the fund and which countries will draw from it. 
With a Federal budget in massive deficit and an economy that 
still that has yet to pull itself out of a deep recession but 
is struggling to do so, the expectation that the United States 
will be footing a major share of the bill for such a U.N. fund 
is pure fantasy.
    So what is all this talk about and where is it heading? The 
purpose of this hearing is to examine the U.N. climate talks 
and the swirling maneuvers and power plays observed in the wake 
of these global gatherings, whether they are in Cancun or 
whether they are in Bali or in whatever other wonderful resorts 
they plan to have these meetings at.
    Our national interests are at stake. How could America 
protect its national interests against demands of rivals in 
meetings such as these? What coalitions confront us and how can 
we thwart the moves, the moves that are being made, that are 
hostile to the interests of the American people? Why do we not 
claim the same right to growth that other nations claim and act 
as if they--and act as they do when they are protecting their 
rights to have a decent standard of living for their people and 
to protect the well-being of their people?
    With us today is our first witness, Todd Stern, the Special 
Envoy for climate change at the State Department. Mr. Stern has 
served at this post since 2009 and is the President's chief 
climate negotiator, representing the United States 
internationally at the ministerial level in all bilateral and 
multilateral negotiations regarding climate change. Before 
joining the Obama administration, he was a senior fellow at the 
Center for American Progress where he focused on climate change 
and environmental issues. He also served in the White House and 
at the Treasury during the Clinton administration, and that was 
from 1997 to 1998. He acted as senior White House negotiator at 
Kyoto and Buenos Aires for U.N. climate negotiations.
    We will have a second panel today and they will be 
introduced as we move forward. And now Mr. Carnahan, the 
ranking member, may have an opening statement of his own.


    [The prepared statement of Mr. Rohrabacher follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Carnahan. Thank you, Mr. Chairman. And you know you 
opened up your remarks talking about where this energy was 
coming from and the Red Bull energy drink that the chairman is 
trying to get me hooked on here today. But anyway, appreciate 
you continuing this important debate. We don't see eye to eye 
on some of these questions, but it is critical that we have 
this conversation. So thank you for having this hearing.
    We are just a few months away since the last round of 
climate negotiations, so this hearing is not just important but 
it is timely. Active, constructive engagements are in our 
country's best interest. When dealing with large-scale global 
challenges like climate change, we need to be at the table, 
leading the discussion, working with other countries. We can't 
make a dent without joint international action.
    Climate change is not a problem that is uniquely American; 
nor is it wrong that it affects only a few countries. It is a 
collective challenge, and it is a challenge that requires broad 
action. The U.N. provides the forum for addressing climate 
change. While not immune from problems and challenges in its 
own right, the U.N. is the largest and most comprehensive body 
in which to tackle these challenges.
    We have already seen many of the positive effects of the 
U.N. involvement: Countries like India and China have come to 
the table and are making real commitments and making real 
progress. Being a responsible partner at the U.N. through these 
negotiations is also in our best national interests. It 
provides us with increased leverage to advocate for U.S. 
policies.
    My State is home to some of the best biotech companies in 
the world. In order to for U.S. businesses to fairly compete in 
the global marketplace, we have to ensure that we get the best 
intellectual property rights protections for our companies. Mr. 
Stern, I know this is something that has been central to 
negotiations, and I would like to hear you address this issue 
in particular today.
    There is also a great opportunity to utilize these 
negotiations to increase exports and to support American 
businesses. Last week, I held a ``Make it in America'' event in 
my district. One of the components of this program is clean 
energy. Creating a framework and exporting prospects for U.S. 
businesses creates new markets, spurs growth, and creates jobs.
    We absolutely have the intellectual capacity to outpace 
every other country in the world on manufacturing and 
technology. We should pursue all avenues to do this. By doing 
so we will not only help our economy, we will also help to 
build the capacity of many of these developing countries in 
order to help them mitigate the effects of climate change.
    I know that there will be a healthy debate today about the 
U.S. financial commitments. We have an obligation to ensure 
that any investment of U.S. taxpayer funds are done in a cost-
effective manner and done with strict accounting and broad 
consensus of the best scientists in the world.
    Last year we held a hearing in this subcommittee on how 
public-private partnerships were helping to achieve the 
millennium development goals. That hearing showed how 
government investments were leveraged to meet the international 
challenges and they could be done cost effectively and could 
help meet U.S. interests. Government investment loans are 
simply not a viable option. We have to find ways to achieve our 
policy goals by spending more wisely.
    I will be interested in hearing from our witnesses today 
how the proposed climate fund which would reach these same 
goals of being open and transparent, cost effective, and would 
leverage private financing. Over the course of the past 2 years 
this administration has been an active and engaged partner in 
dealing with many of the problems of the 21st century. This 
type of leadership is necessary in order to overcome many of 
the hurdles the world faces today. Bringing about real 
solutions to climate change relies on this continued 
engagement.
    I look forward to hearing the witnesses today, and Mr. 
Chairman, I yield back.
    Mr. Rohrabacher. Thank you very much.
    We will proceed with Mr. Stern and we want to thank you 
very much for being with us today. You have a very weighty 
background on these issues and I brought up some controversial 
things to talk about, and I am very very pleased that you have 
come here to talk to us and we will have a very fair exchange 
of ideas. So you may proceed with your opening statement.

   STATEMENT OF MR. TODD D. STERN, SPECIAL ENVOY FOR CLIMATE 
                CHANGE, U.S. DEPARTMENT OF STATE

    Mr. Stern. Thank you very much, Mr. Chairman, and thank 
you, Mr. Ranking Member, for inviting me here today, and I look 
forward to our discussion.
    At the time President Obama took office, there was a 
prevailing paradigm in the climate negotiations that came to be 
accepted by many, although not by us. That paradigm holds that 
there is in essence a firewall between developed and developing 
countries as they were defined in this 1992 Framework 
Convention on Climate Change with all specific obligations to 
address climate change assigned to developed countries.
    There are multiple problems with this paradigm. First, it 
is wrong as a matter of textural analysis. The framework 
convention did not create such a firewall. But beyond this 
legal point, that Kyoto paradigm is unworkable as a matter of 
substance. You cannot address the global climate challenge by 
focusing only on developed countries. Developing countries 
already account for about 55 percent of global emissions and 
will account for some 65 percent by 2030. Instead, you need to 
start with all the major emitters, both developed and 
developing, accounting for some 80 percent of global emissions 
and build out from there.
    This understanding led the Obama administration to pick up 
on a 2007 initiative by President Bush, the Major Economies 
Meeting, comprising the 16 leading developed and developing 
countries, plus the EU, in order to address energy and climate 
change. We slightly changed the name to Major Economies Forum 
and changed the focus, but we retained the basic group. We have 
held 11 meetings at the ministerial level and one at the leader 
level and this group, this organization, has proved to be quite 
useful.
    Recognizing the flaws in the firewall, we favored a 
different approach from the time we came into office, in which 
all major economies, developed and developing, would make 
commitments to limit their emissions and base those commitments 
on their own national plans and circumstances rather than 
having targets that seemed to be imposed from outside. This 
approach was new. It contradicted the received wisdom that 
developed country action was mandatory, while action by even 
the largest developing countries was strictly voluntary.
    The Copenhagen Accord marked the first time that all major 
economies agreed to implement targets or actions to limit their 
emissions and to do so in an internationally transparent 
manner. In this sense, it represented the first break in the 
traditional firewall.
    The Cancun meeting confirmed and substantially extended the 
Copenhagen Accord. Moreover, the Cancun agreements, unlike 
Copenhagen, were formally adopted by the parties of the U.N. 
FCCC. Part of what made the Copenhagen and Cancun deals 
possible, I must say, was a commitment to aid poor countries. 
And I want to tell you why I think such funding is in our 
national interest.
    Our program is built on three pillars. First, clean energy 
to help put developing countries on a low-carbon path; second, 
preserving and managing forests; and third, building resilience 
against extreme weather events. Each of these efforts serves 
important purposes beyond reducing emissions. Helping countries 
get on a clean energy path can create markets for U.S. 
technology.
    Tropical forests are home to some 80 percent of terrestrial 
species, including for example, 70 percent of plants with anti-
cancer characteristics, and the World Bank estimates that every 
dollar we spend in disaster preparedness saves $7 in disaster 
response. Moreover, countries around the world see climate 
change as a core challenge. Whether you agree or disagree with 
that, it is vital to U.S. diplomatic leverage and to U.S. long-
term interests to be seen as part of the solution.
    Finally, our climate funding provides real bang for the 
buck. The overall U.S. foreign operations budget is about 1 
percent of the total U.S. Government budget, and our climate 
funding is only about 3 percent of that.
    So where we do stand now in the negotiations? The first 
priority for the work leading up to this year's conference in 
Durbin, South Africa should be to implement the key agreements 
reached last year in Cancun on transparency, financing, 
technology, and adaptation. If we do that, COP 17 in Durbin 
will be a solid success. Whether we will manage to do that is 
by no means clear. Many developing countries, including large 
ones, continue to be fixated on preserving that 1992 firewall, 
and we won't accept that. After all, the world has changed. As 
of 2009, 4 of the top 10 and 9 of the top 20 emitters in the 
world were developing countries, from so-called non-Annex 1. 
China's GDP is nearly six times larger than it was in 1992, and 
its CO2 emissions are nearly three times larger.
    Beyond the firewall question there are other difficult 
issues, including whether parties to Kyoto--which does not 
include the United States--will agree to a second so-called 
commitment period. And there are other perennial issues that 
will no doubt be raised, including intellectual property.
    Mr. Chairman, I told you at a hearing in November 2009, 
that we would stand strong for intellectual property rights and 
we have and we will.
    The question for the U.N. negotiations at the end of the 
day is what parties want. The U.N. FCCC has the potential to be 
a useful pragmatic body that can help address climate change, 
not the only one, but an important one. We have made some good 
progress in the past 2 years, especially in working to knock 
down the firewall I have discussed and insisting on a new level 
of international transparency. But much work remains.
    Thank you for inviting me to testify today, and I would be 
happy to take your questions.
    Mr. Rohrabacher. Well thank you very much.
    [The prepared statement of Mr. Stern follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. When is the next major session that we are 
going to be preparing for again?
    Mr. Stern. That is in Durbin, South Africa. We will start 
at the very end of November, I think the 27th or 28th, and we 
will run for 2 weeks.
    Mr. Rohrabacher. Okay. So we are coming up on that. That is 
what we are preparing for right now.
    Mr. Stern. Correct.
    Mr. Rohrabacher. All right. And you believe that there will 
be this green climate fund being proposed there that I was 
referring to in my opening statement, the $100 billion a year 
to be collected from various countries?
    Mr. Stern. Let me, if I may, Mr. Chairman, just disentangle 
a couple of elements of the overall financing issue. There is--
there was an agreement in Cancun to establish a green fund. 
That is independent of the $100 billion, which I will get to in 
a second. So that is to set up green fund. There was an 
agreement to do that.
    Now, the work this year involves--there is actually 
something called a transitional committee that was established 
in order to work out the actual operating guidelines, how it is 
going to work, how the board is going to be chosen, what 
financial instruments will be used, and a whole array of 
technical issues that need to be--and sometimes political 
issues that need to be resolved. That committee has met once 
now. We were quite keen--the reason that there is a 
transitional committee, quite frankly, is that we were quite 
keen in having this thing set up in a professional way, outside 
of the control of the U.N. FCCC, outside of the control of 
climate negotiators. Even though I am one, I know that when we 
are setting up financial institutions we ought to have 
financial people engaged.
    So our lead representative from the U.S. Government is from 
Treasury. State is also involved. So that work to set up the 
entity is going on this year.
    There is also a commitment to a goal of mobilizing $100 
billion from all sources. Some of that will go through----
    Mr. Rohrabacher. $100 billion annually, or $100 billion?
    Mr. Stern. $100 billion annually by 2020. Some of that will 
run through the green fund; a great deal of it won't.
    Mr. Rohrabacher. Are you suggesting that this $100 billion 
annual goal is different than the green fund?
    Mr. Stern. They overlap. And I would guess that there would 
be some amount, and I don't know what the amount will be of 
that funding, assuming that the various contingencies come into 
play.
    Mr. Rohrabacher. I am not understanding.
    Mr. Stern. Some it will run through the green fund.
    Mr. Rohrabacher. Two entities. One is going to be a green 
fund and then there is going to be another entity.
    Mr. Stern. No, not another entity. What I am saying, 
imagine that, first of all, the $100 billion is contingent on 
there being adequate mitigation and transparency from 
developing countries. So let's assume that we have got that.
    Mr. Rohrabacher. $100 billion a year.
    Mr. Stern. Yeah, that is right. And there will be a lot of 
that will come through ordinary bilateral channels. I would say 
the great majority, I would think, would come from the private 
sector. So using government policy measures to try to leverage 
private investment, for example, things like risk insurance, 
loan guarantees, those kinds of things. So there will be some 
combination of actual government funding and some significant--
and, again, I would think the great majority, given the fiscal 
condition of the United States and Europe and other countries, 
the great majority of it I would guess will come from the 
private sector, with some government policies----
    Mr. Rohrabacher. That is to the $100 billion fund.
    Mr. Stern. That is right.
    Mr. Rohrabacher. I am not getting the structure here.
    Mr. Stern. Because it is not a fund per se. It is a total 
of $100 billion of resources that will be mobilized for climate 
change.
    Mr. Rohrabacher. Who would be overseeing?
    Mr. Stern. Nobody would be overseeing the fund. There would 
be somebody overseeing the green fund, so maybe you would have 
$10 billion or $20 billion or whatever going to the green fund.
    Mr. Rohrabacher. Nobody overseeing the fund, but there will 
be people overseeing the green fund. I am sorry that I am 
getting a little confused when there are only two funds we are 
talking about here. You can't afford to get me confused.
    Mr. Stern. I am sorry, Chairman, maybe it is a little bit 
confusing. But the $100 billion is a goal for an amount. Right 
now there is a much smaller amount.
    Mr. Rohrabacher. To go into the green fund.
    Mr. Stern. Not to go into the green fund per se; some of it 
will go into the green fund.
    Mr. Rohrabacher. Where is the $100 billion going to go?
    Mr. Stern. Some of it will go into the green fund. Some it 
will flow through U.S. bilateral channels that go to----
    Mr. Rohrabacher. And who will be making the determinations 
as to where that flow is going?
    Mr. Stern. The United States will make determination with 
respect to United States bilateral giving. There will be the 
same for countries in Europe, the same for countries like 
Japan. And, by the way, we don't think that it is excluded at 
all that some of that funding should come from major developing 
countries themselves. I mean Mexico was the one who originally 
proposed the green fund, and in Mexico's original proposal it 
explicitly called for contributions from all countries.
    Mr. Rohrabacher. Is it the whole United Nations that is 
going to determine where these funds go?
    Mr. Stern. No, no. I think it will fundamentally either be 
bilateral and be individual countries deciding where their own 
funding is going to go, or through the green fund. But again 
also through--it can be bilateral. It is U.S. Government-
appropriated money. There can also be the----
    Mr. Rohrabacher. Appropriated money. And who then will be 
responsible for the spending of the money?
    Mr. Stern. Think about what happens right now. There is 
appropriated money that goes right now, much smaller amount, 
that goes to various countries for--just the way I talked about 
in my testimony. So there will still be some of that, and there 
will be some of that in countries all over the world, and there 
will also be, as I said, I think mechanisms like the use of 
things like loan guarantees and risk insurance and so forth 
that will help trigger investments from private sources of 
capital.
    Mr. Rohrabacher. I am just trying to fix responsibility 
here. We are talking about--$100 billion in and of itself is a 
lot of money--but $100 billion a year.
    Mr. Stern. I agree with that.
    Mr. Rohrabacher. This is an enormous amount of money. And, 
frankly, from what you have described, I don't know, maybe 
other people are able to catch this more than I am, but it 
doesn't seem that you have got this plan as to who has got 
authority and responsibility and whether it is one fund or two 
funds; where the money goes; who is going to make the decision. 
It doesn't sound like you have that----
    Mr. Stern. We wouldn't actually want this to be one top-
down massive superstructure. We want there to be control 
through the United States to decide on where a lot of our funds 
go. So some of it will go to the green fund, some of it will go 
through channels that----
    Mr. Rohrabacher. How much do you predict will be the 
contribution of the United States? It is $100 billion annually. 
How much of this will be taken from the United States, the 
people of the United States?
    Mr. Stern. I think that is hard to say right now, 
Congressman. I mean right now, if you look at where we are 
right now, funding the appropriated funds in Fiscal Year 2010 
was a little short of $1 billion, if you look at State, 
Treasury, and USAID. I would think that would ramp up somewhat 
but that U.S. appropriated money is not going to be huge.
    Mr. Rohrabacher. Could you give us a guesstimate? You are 
the main negotiator here. You are on the table telling how much 
we are willing to put in here when you are negotiating with the 
other countries. How much are you telling them we are willing 
to put in?
    Mr. Stern. We are not making commitments about how much we 
are willing to put in. I think that----
    Mr. Rohrabacher. Is that just not known now? Or by November 
when you have this meeting with all these other countries, will 
you know then?
    Mr. Stern. I don't anticipate that we would make any 
commitment to any particular amounts of money in November. I 
don't anticipate that as being part of the discussion.
    Mr. Rohrabacher. If we are not willing to make a 
commitment, I don't understand how we are expecting other 
countries to make commitments.
    Let me ask you, is China going to have any of this money 
coming from this fund? I mean, will they be able to take money 
from the green fund?
    Mr. Stern. Congressman, look, I said about an hour or 2 
after I arrived in Copenhagen in 2009, I did my first press 
conference. And I was asked about funding for China. And I said 
I didn't really anticipate that U.S. funds, which are limited 
in any event, would be most wisely spent going to China.
    Mr. Rohrabacher. I have your quote right here, and I was 
just wondering about if that is still your same position.
    Mr. Stern. Yes, it is my same position. I wasn't popular 
with everybody when I said that, but that is my same position.
    Mr. Rohrabacher. You weren't popular with the Chinese, I am 
sure.
    Mr. Stern. That is what I meant.
    Mr. Rohrabacher. All right. We will have a second round of 
questions, but I have already used an allotment of time here, 
so why don't I let Ranking Member Mr. Carnahan have his shot?
    Mr. Carnahan. Thank you, Mr. Chairman. And I wanted to jump 
in to my questions, really, talking about the U.N. 
specifically. There are some discussions in this whole 
conversation about the proper forum for some of these things to 
happen. Is the U.N. only and our most effective forum for these 
negotiations to take place? And if so, tell us why.
    Mr. Stern. It is a good question Congressman. Look, I think 
that it is not the only forum. I think that one of the reasons 
that we were quite interested in picking up on the group that 
President Bush put together and, as I say, changing it some 
into the Major Economies Forum, is because we believe it would 
be a very useful thing to have a smaller group of the major 
players responsible for about 80 percent of global emissions, 
who could meet together in a more informal and more intimate 
kind of discussion at a more senior level than typically 
happens in the U.N. FCCC, to be able to discuss these issues. 
And I do think that is a good idea.
    I actually, back before I was in any of these jobs, I wrote 
about the need for a smaller group back several years ago. So I 
think it is very good to do that.
    I think that the U.N. is an important body. I think that 
the U.N. FCCC has been seized with this issue for a long time, 
has a certain amount of credibility in the world in working on 
the issue. I think it can do a lot of good and we should 
continue to try to work through it.
    I also think that the thing that matters is dealing with 
the problem, and so we are never going to be focused first and 
foremost on what body we work with. We think it should be the 
U.N. It has got credibility and history on its side but, you 
know, it is going to depend on what develops going forward, and 
what matters to us is that we do something about this problem 
and make progress. So however--sort of whatever works is my 
view.
    Mr. Carnahan. And describe, if you would, the impact of the 
U.S. being at the table and being more actively involved in 
these negotiations.
    Mr. Stern. Well, I think that there is just no question 
that the U.S. is always a very important voice. I think that, 
you know, there are things which could have happened here on 
the domestic policy front that could have made our--could have 
strengthened our hand and given us greater leverage than we do 
have, but even despite some of those things not having 
happened, the United States is an enormously important player. 
And there are many important issues that get wrestled with, 
from the mitigation itself to transparency and funding and 
assistance and so forth, and whether we are dealing with other 
developed countries or we are dealing with major developing or 
Africans, Islanders, Latin Americans and so forth, the U.S. I 
think is an indispensable voice.
    And, you know, what I said in my testimony I think is maybe 
bears repeating. An enormous number of countries are extremely 
concerned about climate change, see it as a high priority. If 
the United States were not engaged, apart from climate change 
itself, which is in and of itself very important, it would hurt 
us. It would hurt us diplomatically. It would hurt us in terms 
of the leverage that we have in the world on a raft of issues. 
So it matters that we are seen to be engaged and trying to be 
part of the solution.
    Mr. Carnahan. Let me thank you. I want to turn now to the 
economic perspective that you mentioned with regard to disaster 
preparedness and that statistic for every dollar spent on 
disaster preparedness, we save $7 in disaster relief. Is there 
any data or estimates on how that concept looks in terms of 
investments in the proposed green climate fund, how that would 
impact disaster relief costs on the back end in terms of 
climate?
    Mr. Stern. Well, I think it is much the same, much the same 
with respect to the adaptation side. So I would see the green 
climate fund as providing funding both for adaptation and for 
mitigation. I actually think if you imagine two parts of the 
green fund, one purely public money, appropriated money from 
governments on the one hand, and then money that is leveraged 
from the private sector on the other, I would assume that a lot 
of the straight public funding will end up going to adaptation, 
because it will be easier to draw private sector funding into 
building big energy projects, the mitigation side, I would 
think.
    So that same kind of metric that the World Bank study 
showed of, you know, $7 of saving for every dollar you invest 
on the adaptation side, I think would be the same kind of 
dynamic with respect to green fund investments and adaptation.
    Mr. Carnahan. All right. Just one last question. In 
relation to U.S. business exports to new international markets, 
what kind----
    Mr. Stern. I am sorry?
    Mr. Carnahan. In terms of how would these agreements affect 
U.S. business exports to new international markets in areas, in 
particular with regard to clean energy technology?
    Mr. Stern. Well, I think that they could be a very good 
thing. I mean, I think that there is a huge--there is going to 
be a huge amount of funding invested in energy infrastructure 
in the world if you look out over the next 2, 3, 4 decades. I 
mean that is just a fact of life. And a great deal of that is 
inevitably going to be invested in the clean or green side, 
whether it is in all manner of renewables, energy efficiency, 
et cetera.
    So I think that as you increase the amount of money that 
can be provided, that can be leveraged from the private sector, 
that is going to create markets for whoever is smart enough, 
may I say, to develop their own domestic industries in this 
area. Three years ago, we had 80 percent larger--I think I have 
the right number--about 80 percent larger investing in clean 
tech than China did, and it is reversed now. So we have got to 
provide the right incentives and the right stimulus to our 
green industries in order to--not just because it is good for 
the environment and good for climate change, but also because 
there are huge markets out there and if we don't get in the 
game we are not going to participate and we are not going to 
get the economic growth and the job growth and so forth that 
will come from those markets. And there are countries, and 
China is chief among them, that are running fast on this track 
right now.
    Mr. Carnahan. Thank you very much.
    Mr. Rohrabacher. We will have a short second round as well. 
Obviously from my opening statement and from things that we 
have been through before, I am highly skeptical of the global 
warming theory--not the global warming, the man-made global 
warming theory, because we all know that there are changes in 
the climate that happen, and it has happened for millennia, and 
whether or not mankind is involved in this is something that we 
have a disagreement on.
    That is not the purpose of the hearing today. But because 
of the theory being accepted here--and know that if there is 
climate change going on and if mankind is going--we also know 
that nature causes this. And when you talk about being prepared 
for natural disasters as being part of the agenda, I was 
wondering about two issues that seem to elude so many people 
who are looking at the issue of global warming. That is that 
rainforests and the rotting wood and the insects in rainforests 
produce an enormous amount of greenhouse gases. I am not sure 
what proportion that would be to industrialization, but it is 
huge. Also, we also know that older trees are actually part of 
the problem as compared to part of the solution, where younger 
trees, by the theory, are sucking in this pollution and 
bringing out oxygen. I mean, this is the basis of this whole 
theory, plant theory.
    Is there some thought being given to subsidizing the 
clearing of rainforests in order to--for some countries, in 
order to eliminate that production of greenhouse gases which is 
huge? Or, would the people be supportive of cutting down older 
trees in order to plant younger trees as a means to prevent 
this disaster from happening?
    Mr. Stern. Well, what I can say about that, Mr. Chairman, 
is that first of all, the notion that the forests are an 
important part of this problem is absolutely right, and I have 
seen different numbers sort of ranging from 15 to 20 percent of 
the total amount of CO2 emitted. That mostly comes from cutting 
trees down.
    Mr. Rohrabacher. It is rotting wood.
    Mr. Stern. Well, it may be--that may be the case. And there 
may be steps--I am not expert on that--with respect to clearing 
out such rot, but I think the fundamental objective and 
fundamental action that can be taken to reduce emissions from 
forests is too slow and ultimately stop deforestation in----
    Mr. Rohrabacher. Even though that is contributing to the 
overall level of CO2?
    Mr. Stern. No, no, no. Again, I am not going to--I am not a 
technical specialist with respect to the forest CO2 issues, but 
the main point is to reduce the level of--the deforestation is 
the biggest driver of CO2 coming from forests, and it comes 
from fundamentally three, the three large forest bases in the 
world, which are the Amazon, the Congo Basin, and then in 
Indonesia.
    Mr. Rohrabacher. So deforestation and not natural 
occurrence of rotting wood in rainforests and bugs that give 
off these greenhouse gases; it is human-kind again?
    Mr. Stern. No, no. Look, I am certain that there are 
natural cycles and natural development.
    Mr. Rohrabacher. Which by the way, that is the question. 
The question is there are natural things; 80 percent at least, 
perhaps 90 percent, of all greenhouse gases are generated by 
nature itself. There is no scientific fight on that, okay. So 
if 80-90 percent are Mother Nature's products, and you said 
that we are going to have this fund of $100 billion, part of 
which will go to tackling some natural calamities which are--I 
mean sea raising up, et cetera, are we going to use that fund 
as well to restrain natural sources of greenhouse gases, for 
example older trees being planted by--being changed to younger 
trees and the clearing away of the rotting wood in rainforests?
    Mr. Stern. I think the best thing I could tell you is I 
would be happy to have people from my staff who are expert in 
that talk with your staff so I think that the effort will be to 
do things that can reduce emissions. I would be happy to do 
that.
    Mr. Rohrabacher. Thank you very much for that. And let me 
just ask a couple of other things now. Again, we are heading 
toward Durbin, and we are talking about November of this year, 
you are going to start really preparing yourself and you will 
have a program. Will America's program, will it include--you 
are talking about $100 billion a year. There will be a plan, 
you are saying, by November of where this $100 billion a year 
will appear from; is that correct?
    Mr. Stern. I am actually not saying that.
    Mr. Rohrabacher. Okay.
    Mr. Stern. I think, the immediate focus on the financing 
side of things this year is going to be on getting the 
operational guidelines, if you will, agreed to with respect to 
the green fund. That may get done this year. It may take this 
year and so 1 more year, I don't know.
    Mr. Rohrabacher. Where did the $100 billion figure come 
from?
    Mr. Stern. It came from--that was done in Copenhagen. That 
was part of the Copenhagen Accord. And again it was not--it was 
in the context of adequate mitigation, you know, reducing 
emissions and transparency on the part of developing countries. 
The developed countries would agree to a goal of mobilizing 
that amount of money from public and private sources, from 
private markets, from many sources. And again, as I said, we 
don't exclude the notion that part of what will be mobilized 
would come from wealthier developing countries, particularly 
over time, because this is a dynamic----
    Mr. Rohrabacher. When we are talking about wealthier other 
countries, these are countries that are producing more wealth 
per person than is being produced in the less developed 
countries. Talking about the control of CO2, it seems to me 
that the criteria that we have been operating on--and I say 
``we,'' meaning our own Government as well as in conjunction 
with the others--is based on the actual amount of CO2 per 
person of the people who reside in the country, rather than per 
$1,000 of wealth that we produce; that the system actually 
comes from our system as it functions.
    In the case of how many--how much CO2 is produced per 
$1,000 of production, we actually have a very low rate of 
contribution to the greenhouse gases as compared if you only do 
it per person. So shouldn't we be basing our--if we are 
watching out for the standard of living and well-being of our 
own people, shouldn't we be basing our own positions on that 
criteria, rather than accepting the idea of just per person, 
what their--you know, what the CO2 production is.
    Mr. Stern. Mr. Chairman, we don't actually base our views 
on per-person or per-capita emissions. We tend to look at the 
emissions of the country. There are many countries that talk 
about per capita. That is a factor, but----
    Mr. Rohrabacher. If you have emissions of a country and 
that country produces, you know, $10,000 worth of wealth per 
person, that country then--we are $20,000 of wealth per 
person--but the CO2, if you are doing it per production, that 
CO2 is actually less. I mean, it seems to me that we are basing 
our negotiations on something that negates any consideration of 
the standard of living that we have produced by the production 
of wealth.
    Mr. Stern. Well, I hear you, but we don't mean to be doing 
that. I mean you are raising a metric that has to do 
essentially with the efficiency with which energy is used which 
is a----
    Mr. Rohrabacher. Part of it.
    Mr. Stern [continuing]. Perfectly valid point and an 
important one. Look, I think, and I heard your comments in some 
of the statements in your opening comments with respect to 
standard of living. I would like to say one thing, which is 
that we do not think that you can approach this problem from 
the point of view of saying that you are going to clamp down on 
anybody's standard of living. Not a developed country, not a 
developing country, not the United States, not India. It is not 
going to work that way.
    The way that this problem is going to be solved, if it is 
going to be solved, is to break--and it is not going to be done 
overnight--but to break the iron link between the growth of an 
economy and the growth of emissions. And you do that by getting 
more and more efficient with respect to the energy you use and, 
over time, by having other sources of energy that are cleaner, 
become bigger and bigger parts of the economy, and ultimately 
the biggest parts. That is the way--we are not going to get--
nobody is going to support clamping down on our standard of 
living. We don't think that is going to happen, and they are 
not going to agree to that in the developing world either.
    Mr. Rohrabacher. Constantly in this debate what we have 
heard, the rich countries, the developed countries, versus the 
undeveloped countries and the poor countries. And the fact is 
that people who are here in the United States of America, yeah, 
our country produces more<greek-l>, quote, deg. ``greenhouse 
gases,'' but in terms of the standard of living of the people 
that it supports, there is no comparison. We actually are very 
efficient and very small in the amount of greenhouse gases that 
we produce per wealth that permits our people to have a higher 
standard of living. And it just seems to me that quite often--
well, not quite often--I am always hearing this, the rich 
countries versus the poor countries, and that is not what it is 
all about.
    Mr. Carnahan, would you like to have a second round and we 
will move on to our second panel? Thank you very much.
    Mr. Stern. Thank you, Mr. Chairman.
    Mr. Carnahan. Mr. Chairman, I got my questions in on the 
first round and so I think I am ready to go.
    Mr. Rohrabacher. I want to especially thank our witness for 
coming today. We had a very good exchange, and I am sure we 
will continue to have this open exchange.
    Mr. Stern. Thank you very much, Mr. Chairman, Mr. Ranking 
Member. Appreciate it.
    Mr. Rohrabacher. If the next panel will be seated, please.
    All right. We are called to order. I will introduce all 
three panelists, and we will proceed with the testimony.
    First, we have Steven Hayward. He is the F.K. Weyerhaeuser 
fellow at the American Enterprise Institute and a senior fellow 
at the Pacific Research Institute. He is author of the 
``Almanac of Environmental Trends,'' and many other books and 
articles on environmental topics. He has also written 
biographies of President Jimmy Carter and Ronald Reagan and of 
Winston Churchill.
    He holds a Ph.D. in American studies from Claremont 
Graduate School. I, too, have a graduate degree in American 
studies. And he has been a visiting professor at Georgetown 
University and Ashland University.
    Then we have Daniel Twining, a senior fellow for Asia at 
the German Marshall Fund of the United States. He has served as 
a member of the State Department's policy planning staff, a 
foreign policy advisor to Senator John McCain, and as a staff 
member of the U.S. Trade Representative.
    He holds a doctorate in international relations from Oxford 
University and has written widely for newspapers and magazines 
and for policy and academic journals. He is completing a book 
on American grand strategy in Asia after the Cold War. That is 
fascinating.
    We also have Elliot Diringer. He is vice president for 
international strategies at the Pew Center on Global Climate 
Change. He came to the Pew Center from the White House, where 
he was Deputy Assistant to President Bill Clinton and Deputy 
Press Secretary as well. He had previously served as a senior 
policy advisor and as director of communications at the Council 
on Environmental Quality, where he helped develop major policy 
initiatives on the environment and participated in 
international climate change negotiations, which we are talking 
about today.
    So, Mr. Hayward, you may proceed, and we will go to Mr. 
Diringer and Mr. Twining.

   STATEMENT OF STEVEN F. HAYWARD, PH.D., F. K. WEYERHAEUSER 
             FELLOW, AMERICAN ENTERPRISE INSTITUTE

    Mr. Hayward. Thank you, Mr. Chairman, Ranking Member 
Carnahan.
    I will begin with my contentious conclusion, which is that 
the international diplomacy of climate change is the most 
implausible and unpromising initiative since the disarmament 
talks of the 1930s, and for many of the same reasons, that the 
Kyoto Protocol and its progeny are the climate diplomacy 
equivalent of the Kellogg-Briand Pact of 1928 which promised to 
end the war, and that future historians are going to look back 
at this entire period of what I call first-generation climate 
diplomacy as the climate equivalent of wage and price controls 
to fight inflation in the '70s, a once popular idea that was 
completely discarded and no one proposes to bring back. I think 
the Kyoto approach will not be proposed to be brought back for 
a very long time either.
    I think the whole U.N. process is on life support, and I 
think it is worth reviewing briefly the reasons why we got to 
this pass before we can understand that there is a better way 
forward.
    When the issue of climate change first came to the fore in 
the late 1980s, the diplomatic community approached it in a 
seemingly sensible way. They asked what diplomatic frameworks 
have worked for similar kinds of problems in the past. In other 
words, what do we have on the shelf?
    There are basically three models for problems of a global 
reach that have shown varying degrees of success. The first 
would be the arms control and anti-proliferation regimes. The 
second would be the long-running and painstaking trade 
liberalization process that had been going on for the whole war 
since the end of World War II. And third and perhaps most 
applicable was the Montreal Protocol of 1987 that facilitated 
the organized phaseout of chlorofluorocarbons.
    It is those last two in particular that former Vice 
President Gore used to like to cite as reasons for his 
enthusiasm and support for the Kyoto process. On the surface, 
the logic seems straightforward and plausible. If we can reach 
a binding and enforceable agreement to phase out 
chlorofluorocarbons, why not a similarly structured agreement 
to phase out hydrocarbons?
    But once you poke beneath the surface, a number of 
fundamental asymmetries between the precedents and the problems 
of climate change become apparent but whose implications I 
think were resisted from the very beginning for the 
understandable reasons of diplomatic and institutional inertia. 
I will confine myself to just a couple of the many that come 
into play.
    First, the problem of climate change is orders of magnitude 
more difficult than the problem of ozone depletion. It is not 
necessary at all to be a skeptic about climate science to 
suggest that the same kind of policy dynamic that worked for 
the ozone layer would not work for a warming planet. The case 
of chlorofluorocarbons was pretty straightforward. The science 
was fairly simple. The time frame was short. Most importantly, 
there were scalable substitutes for chlorofluorocarbons 
available at a reasonable cost.
    By contrast, the climate science is more complex, and even 
if all the complexities wash out, the focus on near-term 
reductions in greenhouse gas emissions, unlike the near-term 
reductions of the Montreal Protocol, fall short for a 
blindingly simple reason. There are simply no economically 
scale able substitutes to fossil fuels available on the global 
level and in the relatively short timeframe contemplated by 
climate orthodoxy.
    The second asymmetry concerns the divide between wealthy 
nations and developing nations. I was pleased that Mr. Stern's 
comments actually track very closely with my own perception of 
the matter, which is that old dichotomy which really was an 
artifact of the post-war years was coming to be obsolete at the 
very time we started in the Kyoto process.
    And I was also pleased that Mr. Stern talked about how the 
Obama administration had decided to pick up with the Bush 
administration initiative, which Bush had called the Asia-
Pacific Partnership. It is worth pointing out that when the 
Bush administration lost the Asia-Pacific Partnership 5 or 6 
years ago, many people in the U.N. climate process and in the 
climate advocacy community were very critical of the Bush 
administration for doing that because they said what Bush is 
trying to do is go around the U.N. process. And now you just 
heard the Obama administration's climate representative say we 
have embraced that approach, which I think is much more 
promising.
    I will come back to that for a moment at the end.
    But now the issue that was discussed in the previous panel 
with Mr. Stern was what we have got left right now, which is 
climate assistance. On the merits, it seems to me this policy 
is incommensurate with the nature and scale of the problem. If 
you took seriously the scale of what you are trying to do to 
match the demands of climate orthodoxy, you would need 
trillions of dollars in climate assistance, not hundreds of 
billions of dollars.
    Secondly--this is the life support aspect of it--I think 
that a lot of developing nations are happy to go along with 
this whole charade if they think we are going to send the cash.
    Now, one of the problems here with having the U.N. do it is 
that it revives again the problem of climate change, which is 
that it has become something of an all-purpose issue that 
advocates for all kinds of causes can grab onto. And so back in 
the '70s, the U.N. was very enthusiastic about what they called 
the ``New International Economic Order,'' or as Chancellor 
Willy Brandt described it then, we need to have ``a large-scale 
transfer of resources to developing countries.'' Well, 
President Reagan pulled the plug on that very forcefully in the 
early '80s at a U.N. summit, coincidentally, in Cancun.
    But now the idea is back, and you hear a lot of climate 
people saying, like one U.N. official, Ottmar Edenhoffer of 
West Germany,

        ``One must say clearly that we redistribute de facto 
        the world's wealth by climate policy. One has to free 
        oneself from the illusion that international climate 
        policy is environmental policy. This has almost nothing 
        to do with environmental policy anymore.''

    That is the kind of loose talk and unseriousness that 
brings discredit to the entire cause of U.N. international 
climate diplomacy, but it is very popular with a lot of the 
U.N.'s constituency, and I think that is unfortunate for the 
whole process.
    I will just say--and I will close here since I am over time 
already--I am an enthusiast that the major economies formed 
with the Obama administration is actually doing more seriously 
I think than the Bush administration did. In that regard, I 
think you will see an interesting continuity between the last 
administration and this one.
    Thank you.
    [The prepared statement of Mr. Hayward follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Rohrabacher. Mr. Diringer.

     STATEMENT OF MR. ELLIOT DIRINGER, VICE PRESIDENT FOR 
 INTERNATIONAL STRATEGIES, PEW CENTER ON GLOBAL CLIMATE CHANGE

    Mr. Diringer. Thank you, Mr. Chairman, Mr. Carnahan, for 
the opportunity to appear before you today.
    In summarizing my prepared statement, I will focus on the 
status of the U.N. climate talks, the efforts being taken by 
other countries to address climate change, and the reasons we 
believe stronger U.S. action is very much in our national 
interest.
    An effective global response to climate change is possible 
only if countries can find ways to align their respective 
national interests with our common interest in a stable 
climate. President Bush--the first President
    Bush--and the Senate were right in helping to establish the 
U.N. Framework Convention as a forum for multilateral action. 
After years of stalemate, we are encouraged by the movement 
over the past 2 years toward a more realistic and more balanced 
global approach, and this is thanks in no small measure to the 
efforts of U.S. negotiators.
    For the first time, all of the world's major economies have 
made explicit pledges to limit or reduce their emissions; and 
parties have agreed to strengthen transparency so we can better 
assess whether the countries are keeping their promises. It is 
vital that the United States remain fully engaged in the U.N. 
climate talks. Our near-term aim should be to put in place the 
transparency, finance, and other mechanisms agreed to in 
Cancun. Our longer-term objective should be fair, effective, 
and binding commitments among all of the world's major 
economies.
    While international agreements are critical, a more 
important measure of efforts to date are the steps countries 
are undertaking domestically. A growing number are implementing 
policies contributing in one way or another to reducing 
greenhouse gas emissions. Many see this challenge as an 
important opportunity as well. A number of our major trading 
partners are moving aggressively to grow their clean energy 
technology industries, creating jobs and high-value exports.
    Europe, which continues to lead the world in green energy 
investments, is succeeding in reducing its emissions while 
growing its economy. From 2004, the year before the EU 
instituted its emissions trading system, through 2008, the year 
before the global financial crisis, emissions were down 4.1 
percent in the EU, while GDP grew 9.8 percent.
    China also is investing heavily and employing strong 
policies to build its clean energy industry, which is already 
the world's leading producer of wind turbines and solar panels. 
China's new 5-year plan includes energy efficiency, emissions 
intensity, and renewable energy targets. It also includes 
policies to promote innovation in strategic and emerging 
technologies, including nuclear, solar, wind, biomass, and 
hybrid and electric vehicles. To be certain, China continues to 
build coal-fired power plants and its emissions continue to 
rise. But it is moving forward with domestic policies in line 
with its international pledge, and many of these policies will 
help China retain a competitive edge in the rapidly expanding 
clean energy market.
    Mr. Chairman, while other countries are stepping up their 
efforts, the U.S. has barely begun. This inaction exposes our 
Nation to real and rising risks. We are already witnessing the 
impacts of climate change here in the United States. The 
widespread flooding now inflicting communities along the 
Mississippi River shows how painfully vulnerable we are to the 
rising risks associated with climate change.
    Looking beyond our borders, our military warns that the 
added stresses of climate change in unstable regions could mean 
further demands on our strained military resources.
    Our inaction also risks our economic well-being. The United 
States remains the world's leading manufacturer, but in the 
growing clean energy sector we risk falling further behind our 
competitors.
    The recent experience of the U.S. auto industry illustrates 
how the right policies can help improve efficiency and reduce 
emissions while creating jobs and profits. Spurred by fuel 
economy standards enacted under President Bush, car makers are 
now offering more fuel-efficient cars. With gas prices rising, 
consumers are buying them.
    In reporting strong sales and profits last quarter, all 
three U.S. auto makers cited higher sales of fuel-efficient 
models. Last year, only one conventional car sold in America 
got 40 miles to the gallon. Today, there are nine. Three of 
them--the Cruise, Elantra, and Focus--were among the top 10 
sellers last month. All three are made in the U.S.
    If we want our clean energy firms to invest in jobs at home 
and compete effectively overseas, we must ensure strong, 
sustained demand for their goods here in the United States. Mr. 
Chairman, the longer we wait to act, the harder it will be to 
avert the worst consequences of warming, the higher the cost of 
coping with those that cannot be avoided, the more we undermine 
our security and the further we fall behind other countries in 
the clean energy race. We must strengthen our efforts here at 
home and we must continue working with other nations toward 
strong and lasting global agreements.
    I again thank you for the opportunity to appear before you 
today and will be pleased to answer your questions.
    [The prepared statement of Mr. Diringer follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. And Dr. Twining.

  STATEMENT OF DANIEL TWINING, PH.D., SENIOR FELLOW FOR ASIA, 
           GERMAN MARSHALL FUND OF THE UNITED STATES

    Mr. Twining. Thanks very much, Mr. Chairman, Mr. Carnahan, 
for having me here today. The views that follow are mine and 
not those of the German Marshall Fund.
    U.S. climate diplomacy should ideally be a bridge rather 
than a wedge between America and key partners. Arguably, poor 
American diplomacy combined with the flaws of U.N.-led climate 
negotiations have had the effect of isolating the U.S. from 
friends and allies, rather than enabling it to build like-
minded coalitions on environmental issues of shared concern.
    A more effective approach would integrate U.S. interests in 
mitigating climate change with broader strategic concerns. It 
would work to produce positive sum outcomes to climate 
negotiations facilitated by joint development and employment of 
key environmental technologies, rather than succumbing to a 
zero sum logic pitting the developed world against the 
developing world in multinational arenas.
    An instructive example of an unfortunate outcome for 
broader U.S. interest was the Copenhagen Conference. Its end 
game produced a crisis in transatlantic relations. Faced with 
the collapse of the talks, President Obama ended up forging the 
agreement in backroom talks with the leaders of Brazil, South 
Africa, India, and China--the BASIC countries.
    European leaders were shocked that, after decades in which 
Europe was the global pacesetter in managing climate change, 
the decisive agreement on a post-Kyoto framework was struck 
without Europe in the room. European leaders were relegated to 
being briefed by President Obama after his conclave with the 
leaders of the BASIC group. Many European officials openly 
pondered a future in which the U.S. and China managed a G2 
consortium to handle global issues or one in which Washington 
conclaved with other rising powers, even as it decoupled from 
its traditional allies to set the global governance agenda. In 
this way, Copenhagen weakened transatlantic comity even as it 
produced an outcome unlikely to substantially mitigate climate 
change.
    The developed versus developing world dynamic of 
multilateral climate negotiations with universal membership 
also compromises U.S. interests with key emerging powers. Among 
the most damaging spillover is the G-77 dynamic. That is 
shorthand for the broader set of discussions that have been 
going on on climate. It enabled South Africa and other 
nonaligned ringleaders to exercise power without 
responsibility, organizing opposition to the developed States 
by mobilizing a large coalition of developing nations to oppose 
U.S. and European climate goals.
    G-77 dynamics create opportunities for our competitors to 
make mischief. In Copenhagen, China took an early strategic 
decision to conclave with the G-77 grouping. China's stand 
served multiple objectives that earned Beijing considerable 
goodwill among developing nations, tweaked the U.S., and 
created cleavages between Washington and other important 
powers, obscured China's status as the world's leading polluter 
and second-largest economy by positioning it as a developing 
economy alongside Sudan and other poor states, gave China 
critical leverage in the Copenhagen end game.
    A third negative dynamic around these universal climate 
negotiations under the U.N. framework is the unnatural wedge it 
introduces into U.S.-India relations. In the run-up to 
Copenhagen, India had a revealing internal debate over how to 
balance its growing role as a partner of the West and an 
international stakeholder with its older identity as a non-
aligned developing power.
    In my view, U.S. diplomacy could have been more effective 
in developing a program of activities to generate green 
technologies and alternative energy investments in a way that 
kept India on side during the Copenhagen negotiations. Looking 
back, India should have been the centerpiece of the strategy to 
disaggregate the developing world in a way that split the G-77 
and decoupled key rising democracies that have serious equities 
in collaborating with us from less constructive players. 
Instead, by virtue of India's own shortsighted calculations and 
the shortcomings of U.S. and U.N. diplomacy, India was pushed 
into making common cause with its leading strategic competitor, 
China, against arguably its most important international ally 
and friend, the United States.
    A few thoughts on looking ahead. Both U.S. diplomacy and 
the cause of managing climate change would benefit from a 
different approach to tackling global warming, one that was not 
U.N.-led with universal membership in which small countries can 
play the role of spoilers and global consensus is achieved with 
really lowest common denominator outcomes that don't please 
anyone. Climate negotiations instead could take the form of 
smaller groupings led by the great powers in closed-door 
negotiations that can encourage even countries like China to be 
more constructive than to grandstand.
    Joint development and application of key energy and 
environmental technologies with friendly emerging economies 
could replace the setting of vague environmental targets 
without action plans to meet them. Our diplomacy could also 
expand climate mitigation partnerships as part of broader 
bilateral agendas with key emergency powers, rather than 
attempting to bring them on side in the more difficult global 
multilateral context.
    Finally, prioritizing climate concerns at the expense of 
broader strategic ties arguably puts the cart before the horse. 
In the case of countries like India, maybe Brazil, our 
interests in the wider climate agenda might be better served by 
building comprehensive partnerships over time that develop the 
mutual trust necessary to manage the climate issue.
    Thank you.
    [The prepared statement of Mr. Twining follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. Well, I think you hit on an alternative 
right there at the last part of your statement. We will discuss 
that.
    I will proceed with my questions.
    First of all--I guess it gets to the point you just made--
is the United Nations the vehicle to uplift the actual 
production of wealth in these societies, the developing 
societies, in a way that would be more environmentally 
friendly? Is the United Nations the way to do this or is it a 
better approach to be working bilaterally with countries that 
are committed to human progress when progress has to be based 
on more efficient use of energy?
    We will just go down the line there.
    Dr. Hayward.
    Mr. Hayward. I think the analogy in my mind is one actually 
I made brief reference to, which is trade liberalization, which 
we did not run through the United Nations. We set up a whole 
separate global institution, ultimately culminating in the 
World Trade Organization. But we set up the whole track largely 
outside the U.N. to pursue that one particular goal. We have 
done similar things with the World Bank and the International 
Monetary Fund.
    I think that the U.N., for some of the reasons I briefly 
alluded to and others that we can go on about at great length, 
is not necessarily the best forum for an issue that has so many 
economic implications, especially when you have so many of 
these cross-cutting ideological differences between different 
kinds of countries and different----
    Mr. Rohrabacher. It might be harder to reach a consensus 
upon people so diverse as everybody in the United Nations or 
even the major players of the United Nations as compared to a 
bilateral agreement between the countries like the United 
States and others who have advanced technology versus those who 
do not.
    Mr. Hayward. I don't want to monopolize the panel.
    Mr. Rohrabacher. Go right ahead.
    Mr. Diringer. I have a suggestion, Mr. Chairman. It is not 
an either/or proposition. This is something we need to be 
addressing on multiple fronts.
    I think there is certainly a role for the Framework 
Convention. Certainly this should be a central issue in our 
relations with other major economies. We have heard reference 
already to the major economies forum.
    Mr. Stern gave some credit to the Bush administration. I 
would like to note that the Bush administration actually gave 
some credit to the Pew Center for having recommended as far 
back as 2005 the establishment of a major economies dialogue as 
a forum for political discussion among the major economies, 
which then has helped to translate into progress in the U.N. I 
think, in fact, the discussions were held----
    Mr. Rohrabacher. I think the Bush administration was 
criticized for that.
    Mr. Diringer. They were indeed, although they were very 
explicit at the time that this was not meant as an alternative 
to the U.N. but rather meant as a complement to the U.N.
    Mr. Rohrabacher. But we really knew it was not a 
complement. We know knew it was an alternative. So we deserved 
that criticism.
    Mr. Diringer. What we have seen in fact is that there was 
consensus reached within the major economies forum that then 
did translate into the Copenhagen Accord and has now translated 
into the Cancun Agreements. So they do play a complementary 
role. And I think that we should pursue all of those forums.
    Mr. Rohrabacher. I would suggest that when we have success 
it is not judged by other international agreements but instead 
by actual changes on the ground to somewhere on the planet.
    For example, I am sure that the amount of CO2 that was 
emitted just going to these global resorts for their opulent 
meetings, there hasn't been enough change generated from the 
agreements that they have reached to even make up for the 
contribution they made to global warming and greenhouse gases 
on the way to the meetings, not to mention the greenhouse gases 
in producing the energy needed to get to the meetings, the 
energy needed to build the airplanes and the limousines that 
had to be transferred over to these various places around the 
world.
    Mr. Hayward. I think it is very limiting and maybe a 
mistake to try and reduce the problem to just the process and 
what form we are going to use. I think ultimately you need to 
ask the question--And that is what went wrong with arms control 
I think for many years. I think what you need to do is also ask 
what is the policy orientation of whatever process or forum 
going to be.
    The reason I think the major economies forum is more 
promising is not simply that it represents the countries that 
account for 80 percent of emissions but if they can adopt a 
process that doesn't focus in on Kyoto-style caps, which are 
going to be problematic for everyone, but a look at the idea of 
how do we accelerate decarbonization of energy. I think the 
Obama administration is thinking--they may not put it that 
way--but I think they are thinking that way. I think Mr. Stern 
suggested that is the track they might be thinking on.
    Mr. Rohrabacher. Mr. Twining.
    Mr. Twining. Sir, just going back to your original 
question, you are a long-standing U.N. watcher. And if there is 
a part of the U.N. that works, it is probably the Security 
Council--small group, serious equities on the table among the 
great powers, closed-door discussions.
    I would argue that the problem with the global U.N. 
framework on climate process is that it resembles the U.N. 
General Assembly, not the Security Council, which as you know 
is kind of a free-for-all. It brings out some of the worst 
tendencies, even among really many countries that are friends 
and allies of the U.S., smaller developing states that rely on 
us but that see the opportunity to kind of seize the podium and 
make rhetorical points grandstanding on key issues.
    So part of my reaction to your question is to assume that 
the idea is you would like climate negotiations to look more 
like the Security Council than more like the UNGA.
    The other point, just very quickly, is in terms of the 
lateral relationships. I have worked a lot on the U.S.-India 
relationship over the last few years, and a key pillar of our 
relationship there is the sense of kind of joint development of 
technologies, a degree of technology sharing with India after 
years of sanctioning it around nuclear issues, which are now 
off the table.
    I think the U.S. Government, U.S. businesses would be much 
more comfortable collaborating with a set of Indian scientists 
and researchers on green energy technologies versus a group in 
China perhaps with connections to the PLA or other government 
body. So as we think about some of the innovation and 
technology solutions looking kind of far ahead, there will be 
gradations between countries and our comfort level in working 
with them.
    Mr. Rohrabacher. I would suggest that things get better 
when there is a profit for people to do things more efficiently 
and you sell this to someone. Selling them something specific 
because you are going to make a profit in doing it is much more 
efficient at actual change than making mandates, especially the 
bigger the government gets, the more inefficient it becomes 
enforcing mandates. If it does get efficient at enforcing 
mandates, then you have got a problem with freedom in the 
world.
    I have problems with trusting the Security Council, 
considering the fact that the world's worst human rights 
abuser, China, has a veto power. And the General Assembly is 
filled with countries that are governed by lunatics and 
gangsters who have the same vote as the United States. So we 
have got some very serious problems if we go about that route.
    Mr. Carnahan, you may proceed with your questions.
    Mr. Carnahan. Thank you, Mr. Chairman, and thanks to the 
panel.
    I wanted to direct my first question to Mr. Diringer and 
Dr. Twining. I would like you to really expand a little bit 
about--you both have kind of made reference to this--but how 
Europe has really taken the lead in many ways in terms of 
really getting green technology out there, reducing emissions 
but also growing their economy. We have heard that that is one 
of the fastest-growing parts of their economy. Talk about what 
we can learn from that in terms of how we can step up to the 
plate in really a larger way.
    Why don't we start with Mr. Diringer.
    Mr. Diringer. I think the most important lesson from the 
European experience is the value of policy in driving 
innovation and deployment in the clean energy field and 
consequently leading to the growth of domestic jobs and the 
growth of exports.
    Among the policies in place in the European Union is a 
renewable energy target. They aim to increase renewable energy 
in their primary energy mix to 20 percent by 2020.
    There are also policies in place at the member state level. 
Germany has increased its renewable jobs from 160,000 in 2004 
to 370,000 in 2010. The German Government believes that strong 
job growth within that sector was part of the reason they were 
able to recover so quickly from the recent recession.
    So I think the real takeaway is that we need to give our 
domestic industries the incentive to produce by creating 
markets at home, the incentives to innovate and produce. Europe 
is doing that, and at the moment is the world's leader in terms 
of clean energy investments.
    Mr. Carnahan. Dr. Twining.
    Mr. Twining. Mr. Carnahan, I agree on the point about 
creating market incentives for companies to invest in a 
different kind of energy future going forward.
    Your very interesting question about Europe and kind of its 
leadership on this issue gets into a very interesting kind of 
theological debate about the role of Europe in the post-Cold 
War word. Without getting deeply into that, I think European 
leaders on this issue and others thought really since the Wall 
came down that Europe could actually offer a model for the 
world, not just on climate but all sorts of things, a kind of 
demilitarized soft power, kind of thought leader model, setting 
an example that other countries could follow.
    And that explains why, after really getting climate change 
on the agenda, it is kind of a leading global issue. Many 
European leaders were shell-shocked, particularly after 
Copenhagen. And I say that because I was in Europe just after 
it all ended. And there was the sense that this was a European 
issue that they had owned. They had put in place a carbon 
market in Europe--or were putting one in place. They had set 
these tangible 20-20-20 goals about the mix of renewables in 
their own domestic economies. And what happened was the key 
agreement, as I mentioned in my testimony, was made without 
them in the room.
    So I think a question going forward for us is: Is Europe a 
model on these issues? Can it be? Or do we look to a future in 
which it really is about kind of great powers competing around 
resource and economy issues in a more traditional sense. And I 
don't think we know the answer yet.
    Mr. Carnahan. I didn't mean to leave you out, Dr. Hayward.
    Mr. Hayward. Well, a couple of things. I am not hugely 
impressed with the European experience as a model for the rest 
of the world for the simple reason the European economies are 
mature, wealthy economies. They have stable or even falling 
populations, unlike countries like India and China, where you 
still have hundreds of millions of people with no electricity 
at all.
    The big problem is that climate orthodoxy says they have to 
go about 10 times further than they have gone so far, and what 
they have done so far is fairly expensive. It is essential 
whole foods energy, which rich countries can afford but poor 
countries can't.
    For example, in the case of China, their pledge to try and 
increase their emissions intensity faster than they have been 
means their greenhouse gas emissions will grow--instead of 40 
percent over the next 30 years, they will grow by 35 percent. 
Well, that is good, but that means that the increase in 
emissions goes like this, something like this, when climate 
orthodoxy says during that time period they need to go like 
that. And that is why these climate negotiations aren't getting 
very far, is that gap in reality means we are trying to comfort 
ourselves with some pledges and aspirations and notions, but 
the math isn't adding up very well.
    Mr. Carnahan. I will reverse this on my second round of 
questions here, but I will start with Dr. Hayward.
    You have obviously raised a lot of questions about the 
scientific evidence about climate change. You question the 
cost. Nevertheless, a report released last week by the National 
Research Council of the National Academy of Sciences, the 
Nation's preeminent scientific research institution, was 
unambiguous in assessing the seriousness of the threat posed by 
climate change.
    The report requested by Congress concluded,

        ``Climate change is occurring, is very likely caused 
        primarily by the emission of greenhouse gases from 
        human activities, imposes significant risk for a range 
        of human and natural systems.''

    I would like to get your comment on that recent report, and 
we will go to the other witnesses after that.
    Mr. Hayward. I haven't read beyond a couple of pages of the 
executive summary. I see no reason to dispute it at all. The 
question in my mind is it does not prescribe what policy you 
have to fix that.
    My comments, most of my work is detailed on the energy side 
of the question, which is, all right, let's accept the most 
extreme scenario--and, by the way, then the energy problem 
becomes even harder and makes some of the way we talk about 
these negotiations even more unreal, from my point of view.
    Mr. Carnahan. Mr. Diringer.
    Mr. Diringer. The report you cited is just the latest 
affirmation from the Academy of Sciences of the consensus that 
climate change is real, human activity is largely the reason 
why, and that it will intensify unless we take some action.
    I think whether or not one believes that the buildup of CO2 
in the atmosphere is in fact driving warming and climate 
change, I think it is important to recognize the co-benefits of 
addressing the issue. If we act to reduce CO2 emissions, we 
help to address local air pollution problems, we help to 
address ocean acidification, we help to improve our efficiency, 
we will reduce our reliance on imported oil. So there is a 
whole range of co-benefits to the kind of action we are talking 
about.
    On the question of costs, we have seen historically in the 
United States that the benefits of our environmental actions 
have greatly exceeded the costs. A report by OMB in 2003 under 
the previous administration concluded that the major rules 
enacted under the Clean Air Act between 1992 and 2002 produced 
annual benefits of $145 billion to $218 billion, six to eight 
times greater than the annual costs. So you get a whole range 
of co-benefits, and these benefits far outweigh the costs.
    Mr. Carnahan. Thank you.
    Dr. Twining.
    Mr. Twining. Just a quick point. It is a very good 
question. Sometimes it helps, at least to me, to kind of focus 
in on tangible impacts of climate change. I do some work with 
our National Intelligence Council, and they have done a series 
of forecasts around how some of the climate predictions impact 
key powers in the international system.
    Just to sketch out in a sentence: South Asia gets hit very 
badly in some of these projections. Bangladesh is under water. 
You have 150 million from that side trying to get into India, 
almost 200 million. You have calamitous impacts in India.
    Again, for all of us who have great hope for U.S.-India 
relations in terms of managing and Asian balance and supporting 
our values in the world, India gets hit really harder than any 
other great power under some of these projections.
    So I think there is an interesting conversation to be had 
about the national security implications of some of these 
forecasts that we should all really be thinking about.
    Mr. Carnahan. Thank you all.
    Mr. Rohrabacher. All right. Again, I want to thank everyone 
on the panel for coming today and participating in this 
interesting discussion.
    Let me note that I think that China, to the degree that it 
has been engaged in what we would call positive behavior in 
better uses or better technologies in terms of producing 
energy, has been doing so not because they want to save the 
planet from climate change but instead because they have a real 
human rights problem with human health that their people--
massive numbers of people--are being damaged, their bodies are 
being damaged by pollution in the air.
    And let me note that CO2 is not, no matter what the EPA 
says, a pollutant that affects human health. They in fact, in 
order to declare it a pollutant, had to claim, well, the 
climate will change and then that will cause human health to be 
affected. Thus, it is a pollutant.
    That convoluted reasoning is--it may justify a power grab 
to someone who wants to give them the power, but it certainly 
doesn't justify--it is not common sense. CO2 is plant food. We 
pump CO2 into the greenhouses throughout California to produce 
better plants.
    I am very concerned about--for the same reason the Chinese 
are concerned--about pollution, and it does not--Mr. Diringer, 
it does not cross all the time. Sometimes it runs parallel. 
Other times it doesn't. Sometimes you have people who are so 
adamant about global warming that they are taking us away from 
things that might be effective for health.
    Let me go back to the fact that we are talking about 
climate change over and over again here today, and the fact 
that we are talking climate change indicates that the 
predictions have been wrong. We have been following this for 20 
years. Ten years ago, no one used the word climate change. The 
word global warming was what it was described over and over and 
over again. And the reason we now hear climate change is 
because it is not. The 10 major scientists that--the major 
scientists that I put into the record in the beginning of the 
hearing, plus the hundred other major scientists, just do not 
go along with that finding.
    So I would just suggest that, for example, in my own case 
in California, because those people who are dominating certain 
parts of the scientific community, we are talking about how 
global warming was still a factor, and they predicted a dry and 
a warm winter for the United States, especially California, and 
it has been one of the wettest, coldest winters that we have 
had in my adult life.
    If you look back at the predictions by those claiming to 
understand how CO2 affects the climate, they were saying that 
the Midwest would not be flooding but would be parched.
    So that is why I am somewhat of a skeptic on human activity 
causing something. Because then that gives us the excuse to 
control human activity, rather than suggesting that we have had 
climate changes throughout the history of the world. And we 
know that those other changes were not caused by human beings. 
However, to grant the other side of the argument their due, we 
should also be concerned about human adaptation even if it is 
natural to climate change, which may or may not be the case.
    So I would focus and say, yes, let's take a look at human 
adaptation and how that is going to--if indeed we are going to 
have seas rising throughout the Pacific or see Bangladesh going 
underwater, is that actually going to happen? Are we really 
going to have a warm, dry winter? We have got to make sure we 
know what we are talking about and not just accepting somebody 
who is without challenging their dire predictions.
    Again, it used to be global warming. Now it is global 
climate change, for obvious reasons.
    Let's get back to, first of all, the United Nations and the 
economy of this of what we are talking about here. Mr. 
Diringer, you did mention Europe as a success. My reading shows 
me that Spain has actually been hurt dramatically. I think I 
read that in The Economist. Is The Economist wrong about that, 
that Spain has not benefited by their focus on solar power and 
in fact it has contributed to their national economic upheaval?
    Mr. Diringer. Certainly, Spain is experiencing some dire 
economic difficulties. I can't speak to whether or not their 
efforts to expand their renewable energy industry have 
contributed to that. I am not familiar.
    Mr. Rohrabacher. There have been several reports.
    What about you, Dr. Hayward?
    Mr. Hayward. I don't like to get into the contentious 
methodological arguments about how many jobs, because you can 
always argue about those until the cows come home.
    I think what you do see, though, clearly is--I will give 
you Germany as an example. Germany is trying to promote solar 
power with their feed-in tariff idea. So if you put solar 
panels on your buildings, they will pay 45 cents a kilowatt 
hour. Pretty nice. The average price of electricity here in 
this country is 10 to 12 to 14 cents.
    So, yeah, if you subsidize something, you will get a lot 
more of it. But you cannot scale that up to 10, 15, 20 percent 
of your electricity, given the fiscal realities of modern 
economies. That is the limiting factor.
    Mr. Rohrabacher. Plus, you are taking wealth from somewhere 
else in your society.
    Mr. Hayward. Well, you know our mutual hero liked to say, 
pretty soon you run out of other people's money. They are 
running out of other people's money in Europe now.
    Mr. Rohrabacher. Finally, let's just get back to the United 
Nations.
    Do you trust the United Nations? You were making some 
comparisons there to the United Nations. Can the United Nations 
be trusted with $100 billion a year to oversee that properly? 
Are you confident that the U.N. will oversee it and that that 
would be the best use put for $100 billion of wealth to be 
directed by the United Nations in the name of this problem, 
solving this problem?
    Mr. Twining. No, sir. I just want to qualify my comment on 
the Security Council, which is that I didn't mean to suggest 
that it works brilliantly. It was just to compare its relative 
merits to other U.N. bodies.
    My sense on this, just is very quickly, is that you 
probably want a climate process that looks more like a 
multinational corporation or a market that somehow looks like a 
big market. And whether you talk about that in terms of 
government subsidies or a carbon tax or more positive forms, 
you probably want this to look less like a bureaucracy and more 
like something you would see in the private sector in which 
peoples and countries actually have some ownership and some 
stakes in innovating and conserving resources.
    Mr. Rohrabacher. I would suggest that I see that happening 
in the world economy already. I would suggest that all over the 
world we see great examples of people pushing forward.
    For example, even though I reject this whole theory of man-
made global warming, I am certainly someone who is pushing here 
in Congress the development of these new modular nuclear 
reactors and high-temperature gas-cooled reactors that eat the 
waste from other reactors so it doesn't have that problem. This 
would certainly not have any greenhouse gases as a result. But 
it seems to me that that is a marketplace decision which 
motivates me and other people in that arena, rather than 
thinking about this as a bureaucratic approach to we are going 
to mandate things and plan out this change in energy for 
mankind that will save the planet from climate change, which 
will elevate the human condition.
    Mr. Diringer.
    Mr. Diringer. Well, to your question would I trust the 
U.N., no, but let me clarify. There has been no agreement to 
establish a single fund to be managed by the U.N. or anybody 
else to mobilize this $100 billion. This figure of $100 billion 
is an aspirational collective goal that countries have set for 
themselves. And the aim is to mobilize these funds--a 
combination of public funds, private funds, bilateral, 
multilateral. They will be flowing through multiple channels.
    Countries will probably be reporting on the funds that they 
have expended, whether through bilateral or multilateral 
channels, whether it is through public or private channels; and 
there will be some tallying at some point to see how well we 
are doing toward meeting that goal. But there is not going to 
be any single mechanism that would ever attempt to try to 
deliver funds on that scale. And I am quite certain that if 
there were to be such a mechanism contemplated, the United 
States would certainly oppose it.
    Mr. Rohrabacher. Well, this is a good point, because I 
would suggest if what you are describing is what evolves and 
emerges, that we already have that. For example, when I just 
gave the example of a high-temperature gas-cooled reactor or 
the new modular nuclear reactors, which are incredibly safe and 
cost-effective, et cetera, still taking care of the problem of 
leftover waste, which these new reactors do, I would say if we 
move forward with that strategy in building these reactors here 
in the United States, it will be a $100 billion project. Just 
that in and of itself will be a project in which hundreds of 
billions dollars are being spent building these new reactors 
that can be placed all over the United States and all over the 
world.
    If that counts toward what we are talking about, because 
that is just a number of which all of us contribute to, well, 
then no one has much to worry about. I think that is already in 
the process.
    But I will have to tell you, when you get all these 
bureaucrats from all over the world flying in on their jets and 
being met at the airport by their limousines and being 
shepherded off to these glamorous resorts and talking as if 
they are the elite and they are going to make the decisions, it 
worries me a bit that maybe what they really have in mind is 
something that they would control and start directing 
personally. And that is one of the reasons we are having this 
hearing today.
    Mr. Hayward.
    Mr. Hayward. Well, I can thrash the U.N. with the best of 
them, but I think you need to ask the question: What do they do 
well and what do they do badly and can we derive a lesson from 
that?
    What they do well I think is refugee assistance, food 
assistance, some of their education programs, some not. They 
have a very mixed record on peacekeeping and conflict 
resolution. And if the U.N. had lived up to its original 
aspirations in 1945, I think we wouldn't have needed NATO, for 
example.
    Now, the one precise precedent I think for the green fund 
that is being talked about would be the U.N. population fund. I 
believe that is what it called. From about 1970 to the mid-'90s 
population growth from the population bomb coming out of the 
enthusiasm of that time, that was thought to be the preeminent 
global threat that the world community had to deal with. I will 
just state my opinion--I have read a lot of literature on 
this--is that the U.N. population fund record is not an 
encouraging precedent for a green fund. If the United States is 
going to participate I think probably close to what Elliot is 
suggesting, we will probably want to do it ourselves through 
USAID, and that is another can of worms.
    Mr. Rohrabacher. Mr. Carnahan has told me that he doesn't 
have any follow-up questions. But out of courtesy, because I 
have been kibitzing with Mr. Diringer on global warming, I am 
going to give you the last say in the hearing today.
    Mr. Diringer. Well, I appreciate that, Mr. Chairman.
    I think there is one point that we haven't yet raised in 
all our discussion about what are the best or most appropriate 
forums for international discussion or negotiations, and that 
is the question of political will. The best forum will 
accomplish nothing if countries do not come to it with 
sufficient political will.
    In looking back over the past two decades of negotiation 
within the U.N. Framework Convention, I don't think we have yet 
actually given it an honest chance, because countries have not 
yet come to that process prepared to take the actions at home 
that would enable them to actually reach strong agreements. 
This is a long-term process, and I think we need to view the 
climate framework as an evolutionary framework, one that 
hopefully will grow in strength over time as our political 
understanding and political consensus grows and solidifies 
within our domestic context.
    So my hope is that here in the United States we can 
continue to reach a stronger understanding of the causes and 
consequences of climate change, work our way toward meaningful 
policies to address our emissions, and thereby put ourselves in 
the position to help lead to stronger global agreements.
    Mr. Rohrabacher. I want to thank all of our witnesses. 
Thank you very much. I think we have had a very fine exchange 
of ideas.
    This hearing is now adjourned.
    [Whereupon, at 5:01 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
